<html>
<title> - [H.A.S.C. No. 113-104] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                                     

 
                         [H.A.S.C. No. 113-104]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                      FOR INTELLIGENCE ACTIVITIES

                               __________

                              HEARING HELD

                             APRIL 4, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     





                  U.S. GOVERNMENT PRINTING OFFICE
87-867                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




    SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS AND CAPABILITIES

                    MAC THORNBERRY, Texas, Chairman

JEFF MILLER, Florida                 JAMES R. LANGEVIN, Rhode Island
JOHN KLINE, Minnesota                SUSAN A. DAVIS, California
BILL SHUSTER, Pennsylvania           HENRY C. ``HANK'' JOHNSON, Jr., 
RICHARD B. NUGENT, Florida               Georgia
TRENT FRANKS, Arizona                ANDRE CARSON, Indiana
DUNCAN HUNTER, California            DANIEL B. MAFFEI, New York
CHRISTOPHER P. GIBSON, New York      DEREK KILMER, Washington
VICKY HARTZLER, Missouri             JOAQUIN CASTRO, Texas
JOSEPH J. HECK, Nevada               SCOTT H. PETERS, California
                 Steve Kitay, Professional Staff Member
                       Catherine McElroy, Counsel
                 Mark Lewis, Professional Staff Member
                          Julie Herbert, Clerk



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Friday, April 4, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Request for Intelligence Activities.......     1

Appendix:

Friday, April 4, 2014............................................    11
                              ----------                              

                         FRIDAY, APRIL 4, 2014
  FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        INTELLIGENCE ACTIVITIES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Intelligence, Emerging Threats 
  and Capabilities...............................................     2
Thornberry, Hon. Mac, a Representative from Texas, Chairman, 
  Subcommittee on Intelligence, Emerging Threats and Capabilities     1

                               WITNESSES

Flynn, LTG Michael T., USA, Director, Defense Intelligence Agency     4
Ledgett, Richard H., Jr., Deputy Director, National Security 
  Agency.........................................................     8
Long, Letitia A., Director, National Geospatial-Intelligence 
  Agency.........................................................     6
Vickers, Dr. Michael G., Under Secretary of Defense for 
  Intelligence...................................................     3

                                APPENDIX

Prepared Statements:

    Flynn, LTG Michael T.........................................    22
    Ledgett, Richard H., Jr......................................    36
    Long, Letitia A..............................................    29
    Vickers, Dr. Michael G.......................................    15

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
  FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR 
                        INTELLIGENCE ACTIVITIES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                   Subcommittee on Intelligence, Emerging  
                                  Threats and Capabilities,
                             Washington, DC, Friday, April 4, 2014.
    The subcommittee met, pursuant to call, at 11:00 a.m., in 
room 2212, Rayburn House Office Building, Hon. Mac Thornberry 
(chairman of the subcommittee) presiding.

OPENING STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM 
TEXAS, CHAIRMAN, SUBCOMMITTEE ON INTELLIGENCE, EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Thornberry. Hearing will come to order.
    Today is the first of two events the subcommittee is 
hosting related to the fiscal year 2015 defense intelligence 
budget.
    Today we will hear from the Under Secretary of Defense for 
Intelligence as well as the heads of the DIA [Defense 
Intelligence Agency], NSA [National Security Agency], and NGA 
[National Geospatial-Intelligence Agency]. Next week we will 
hold a second session with the senior intelligence officers of 
each of the military services as well as Special Operations 
Command.
    Armed Services Committee continues to be focused on making 
sure that our warfighters have the best possible intelligence 
support.
    DIA, NSA, and NGA are each combat support agencies, and we 
have asked them to describe today their efforts to support 
current military operations as well as to help the Department 
of Defense [DOD] anticipate and prepare for future conflicts.
    Each of these agencies is part of the Intelligence 
Community and has responsibilities to both the larger U.S. 
Government and to the Department of Defense. That is a delicate 
balance, and both missions are critical to our Nation.
    Over the past year, we have been presented with numerous 
additional challenges, whether it is the current crisis in 
Ukraine, ongoing military operations against terrorist groups, 
or mitigating the most serious compromise of classified 
information in U.S. history.
    Intelligence and the protection of that intelligence 
continues to be one of the most important parts of our national 
defense.
    Let me yield to the distinguished ranking member for any 
opening comments he would like to make.

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
  RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON INTELLIGENCE, 
               EMERGING THREATS AND CAPABILITIES

    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our witnesses for being here today.
    I especially want to thank Chairman Thornberry for 
organizing and putting together this very important hearing.
    I hope that today's discussion will be both productive and 
constructive as we continue to exercise this subcommittee's new 
oversight responsibilities relating to the intelligence 
portfolio for which the Armed Services Committee has oversight 
responsibilities for.
    First and, unfortunately, foremost, of course, I continue 
to be concerned about the implications and ramifications to the 
Department from the leaks of the NSA contractor. I have read 
the information review task force report. It was an essential 
assessment and a very sobering one, indeed.
    However, I would like to get a better idea of what we know 
now and what we don't know and what we are going to do about 
it.
    After all, as DNI [Director of National Intelligence] 
Clapper testified before the Intelligence Committee, the vast 
majority of the information comprised has nothing to do with 
NSA surveillance and collection, but, instead, has dire impacts 
directly on DOD.
    I am very concerned about the damage assessment and the 
practical effects of these leaks on our men and women in 
uniform who are at risk each day, but just as important is the 
way forward on mitigation.
    We certainly don't need to scrap every operations plan, but 
we do need to look at shifting some Department priorities and 
policies. And I would appreciate you speaking to the magnitude 
of what we will have to face in the coming years.
    I am also interested in the progress of the Defense 
Clandestine Service [DCS] and its ability to meet strategic 
defense priorities.
    I know that the Defense Clandestine Service is not new to 
DIA, but certainly it is--under General Flynn's direction and 
that of Secretary Vickers, has enhanced its capabilities. I am 
looking forward to getting an update on that.
    There have been some growing pains, but I strongly believe 
the DOD must maintain a clandestine human capability, which I 
have to say is sometimes challenged in the Intelligence 
Committee.
    How is DCS progressing and improving its capabilities, 
refining its requirements, moving officers into places where 
they can be most effective, and integrating and coordinating 
with others in the Intelligence Community?
    From a budget perspective, money above the Budget Control 
Act [BCA] levels via the Bipartisan Budget Act was given back 
largely to the services. This puts a particular strain on 
agencies like yours.
    We are going to have to take some risk, but there is a 
breaking point. As your partners on the Hill, we would like to 
help you avoid that breaking point and manage your risk 
wherever possible.
    We would also appreciate the benefits of your perspective 
on particular cuts in other parts of the Department that could 
impair your activities such as the COCOMs [combatant commands].
    And, finally and fittingly, given today's hearing on the 
QDR--given yesterday's hearing on the QDR [Quadrennial Defense 
Review], I would like to discuss the overall defense strategy 
implications to intelligence.
    When the Department looks out over the next decade, is the 
defense intelligence apparatus correctly postured to meet our 
operational priorities? And is it correctly aligned to cover 
the globe, operate where we need, and operate to sustain our 
counterterrorism operations?
    So, with that, Mr. Chairman, I would like to again thank 
you for holding this very important hearing.
    To our witnesses, thank you again for your appearance today 
and your service to the Nation. I certainly look forward to our 
continued and productive relationship as we work together to 
ensure the best intelligence posture for the Nation.
    Thank you. I yield back.
    Mr. Thornberry. Thank the gentleman.
    I want to welcome our witnesses: Dr. Michael Vickers, Under 
Secretary of Defense for Intelligence; General Michael Flynn, 
Director of Defense Intelligence Agency; Ms. Letitia Long, 
Director of National Geospatial-Intelligence Agency; and Mr. 
Richard Ledgett, the Deputy Director of the National Security 
Agency.
    We will start with unclassified opening statements from 
each of our witnesses and then reconvene in a classified 
setting next door, where each witness will then be able to make 
brief classified remarks, followed by Members' questions.
    Dr. Vickers, the floor is yours.

STATEMENT OF DR. MICHAEL G. VICKERS, UNDER SECRETARY OF DEFENSE 
                        FOR INTELLIGENCE

    Dr. Vickers. Chairman Thornberry, Ranking Member Langevin, 
distinguished members of the subcommittee, I appreciate the 
opportunity to come before you today to discuss the fiscal year 
2015 budget requests for defense intelligence.
    I am especially pleased to be here with Mike, Tish, and 
Rick. Betty Sapp, our director of the National Reconnaissance 
Office, testified yesterday before the Strategic Forces 
Subcommittee.
    While the unclassified nature of our opening remarks keeps 
us from discussing in detail many aspects of defense 
intelligence, we look forward to meeting in closed session to 
discuss these topics more fully.
    Intelligence is a major source of U.S. advantage. It 
informs wise policy and enables precision operations. It is our 
front line of defense.
    The challenges we face, however, are increasing and 
becoming more complex, and our resources are declining. It is 
imperative, therefore, that we make the best use of available 
resources, given the challenges we confront.
    As the USDI [Under Secretary of Defense for Intelligence], 
I am the program executive for the Military Intelligence 
Program [MIP] and have oversight over the related programs that 
comprise what we call the Battlespace Awareness [BA] portfolio.
    The Department's fiscal year 2015 MIP budget request for 
base appropriations is $13.3 billion, which does not include 
overseas contingency operations funds. The BA portfolio 
includes significant additional resources.
    Defense intelligence collectively encompasses the defense 
portion of the National Intelligence Program, the MIP, and the 
BA portfolio.
    My close relationship with DNI Clapper enables DOD and the 
Intelligence Community to work seamlessly to manage, resource, 
and apply our intelligence capabilities in pursuit of our 
national security objectives while avoiding duplication of 
effort.
    We have five defense intelligence operational priorities: 
Countering terrorism, particularly countering the threat posed 
by Al Qaeda; countering the proliferation of weapons of mass 
destruction and associated delivery systems; countering the 
actions of repressive governments against their people, such as 
in Syria; countering state-on-state aggression; and countering 
cyber threats.
    To address the intelligence gaps that exist within these 
operational priority areas, we are focused on enhancing defense 
intelligence capabilities in five areas: Enhancing global 
coverage; improving our ability to operate in anti-access/area 
denial, or A2/AD, environments; sustaining counterterrorism and 
counter-proliferation capabilities; continuing to develop our 
cyber operations capabilities; and strengthening our 
counterintelligence capabilities and reforming our security 
clearances processes to minimize insider threats.
    All four of us are committed to working with the Congress 
to find the best way to continue to deliver intelligence 
advantage to our Nation and our warfighters.
    I thank you for the opportunity to address this 
subcommittee today, and turn now to my colleagues to address 
what they are doing within their individual agencies to further 
our defense intelligence goals.
    [The prepared statement of Dr. Vickers can be found in the 
Appendix on page 15.]
    Mr. Thornberry. General Flynn.

   STATEMENT OF LTG MICHAEL T. FLYNN, USA, DIRECTOR, DEFENSE 
                      INTELLIGENCE AGENCY

    General Flynn. Chairman Thornberry, Ranking Member 
Langevin, and members of the subcommittee, on behalf of the men 
and women of the Defense Intelligence Agency, I want to say 
thank you for your invitation to present our fiscal year 2015 
budget request.
    Let me begin by saying I fully support the priorities Under 
Secretary Vickers outlined in his remarks. As you have recently 
heard from Admirals McRaven and Locklear and Generals Rodriguez 
and Austin during their appearances before the full committee 
earlier this year, the need for more timely and accurate 
intelligence continues to exponentially grow.
    Persistent crisis in the Middle East and recent 
developments in Crimea, Central Africa, and the Asia-Pacific 
region underscore the constant drumbeat for more fighters, 
commanders, and policymakers for specialized understanding and 
insight into the countless threats and military capabilities 
around the world.
    Both you and I have a responsibility to our men and women 
to make smart decisions in these austere times to take risks 
where we must, but, also, maintain those investments which will 
ensure our security well into the future.
    DIA has made significant changes to manage risk to ensure 
that we will continue to meet the increasing operational needs 
and strategic challenges that threaten our military advantage.
    During my testimony this morning, I will highlight four 
critical priorities in our request: Number one, intelligence 
collection operations; number two, all-source analysis; number 
three, investments in our workforce for professional 
development and career-broadening experiences; and, number 
four, how we have reshaped much of our business practices and 
process.
    First, within intelligence collection operations, ensuring 
the success of the Defense Clandestine Service is a priority 
not only for DIA, but for the Defense Department and the 
Intelligence Community as a whole.
    Your oversight and support have helped DCS mature as a 
human intelligence capability and make measurable progress in 
support of all defense intelligence equities.
    On all measures--tradecraft, professionalization, and both 
the quantity and quality of recruitments--we have experienced a 
marked increase in performance this past year.
    In terms of counterintelligence, this is another critical 
investment for DIA. Recent events remind us that accepting too 
much risk in the CI--or in counterintelligence realm can come 
at an unacceptable cost.
    Our budget request focuses our CI investments on creating a 
holistic strategy that addresses traditional 
counterintelligence, increases network monitoring, improves 
insider threat identification, and fortifies a security-
conscious culture within our workforce.
    Second, all-source analysis is a core mission of DIA and 
rightly comprises one of the largest portions of our budget. We 
are implementing new solutions to mitigate global coverage 
risks, particularly by forging closer ties to the combatant 
command Joint Intelligence Operations Centers, or JIOCs, 
through the Agency's five Intelligence Integration Centers.
    Our integrated centers fuse our analytic and collections 
workforce to maximize enterprise support to operational 
decisionmaking and strategic policy.
    While only in their first year of operation, our combined 
performance in response to the recent crisis in Ukraine, flash 
points in the South China Sea, instability in Sub-Sahara 
Africa, and the ongoing civil war in Syria, highlight the 
benefit of multifaceted integration and collaboration as well 
as a strong lash-up with the combatant command JIOCs.
    Third, over the past year, we have increased our 
investments in our workforce professional development programs 
as well as career-broadening experiences.
    In terms of professional development, we consolidated 21 
separate offices into one Academy of Defense Intelligence, 
realizing an immediate cost savings of $3 million.
    Additionally, through our Office of Defense Intelligence, 
we have reemphasized enhanced training for our analytic 
workforce through our new Professional Analyst Career Education 
program.
    In terms of career-broadening experiences, this past year 
we rotated 225 DIA and combatant command personnel overseas and 
plan on an additional 320 personnel for fiscal year 2015, 
further integrating the Defense Intelligence Enterprise.
    Lastly, to further prepare our workforce for an uncertain 
future, we have also consolidated three of our military 
Reserves offices and over 1,200 reservist billets under one 
two-star component.
    The impact of all of these changes has already seen an 
improvement in analytic production, a decrease in contract 
instructors, and an increase in the number of man-days we get 
out of our Reserve intelligence component.
    Fourth, we are taking steps to significantly improve our 
contracting business processes with a ``Start Small, Scale 
Fast, Fail Cheap'' strategy that reduces risks, shortens 
delivery time by 6 to 9 months, and mitigates the ``too big to 
fail'' trap that we typically get ourselves into.
    We are particularly proud of our work with small 
businesses, which are generating the original ideas we need for 
the future. The Federal Government average of small business 
contracting is less than 25 percent, but at DIA, over the past 
year, we have nearly doubled our investments in small 
businesses, reaching a new high of 31 percent. And now nearly 1 
out of every $3 that we invest is invested in small business.
    As you review our overall budget request, you will find 
that we have made the hard choices and the right investments to 
ensure that our fully integrated defense intelligence team of 
highly skilled professionals is equipped with the right 
training and technology, strengthened by partnerships across 
the whole of government and around the world. And we will 
continue to provide all-source defense intelligence whenever 
and wherever required in support of our warfighters.
    I thank you for your continued support and look forward to 
your questions.
    [The prepared statement of General Flynn can be found in 
the Appendix on page 22.]
    Mr. Thornberry. Thank you.
    Ms. Long.

  STATEMENT OF LETITIA A. LONG, DIRECTOR, NATIONAL GEOSPATIAL-
                      INTELLIGENCE AGENCY

    Ms. Long. Good morning, Chairman Thornberry, Ranking Member 
Langevin, and distinguished members of the subcommittee.
    Thank you for the opportunity to discuss the National 
Geospatial-Intelligence Program and the NGA MIP budget request 
for fiscal year 2015. Thank you also for your continued support 
to enhance defense intelligence.
    Pleased to appear before you today with Dr. Vickers and my 
fellow directors. In my more than 30 years of working in 
defense intelligence, the cooperation and collaboration between 
our agencies has never been stronger.
    Geospatial Intelligence, or GEOINT, is the analysis of 
information from a number of unique and highly technical 
sources that describe, assess, and visually depict physical 
features and geographically referenced activities on earth,
    GEOINT has always been integral to military operations 
around the world, and today it is one of the drivers for 
intelligence integration because everything in the world is 
someplace at some time.
    As the lead Federal agency for GEOINT, NGA provides this 
critical information to the defense community, military 
commanders, decisionmakers, troops deployed in harm's way, and 
first responders.
    Our content, analysis, and services enable mission 
planning, combat operations, strategic warning, precision 
targeting, counterterrorism operations, counter-proliferation, 
GPS [global positioning system] navigation, and humanitarian 
assistance and disaster response.
    As an example, NGA produces and sustains global 
aeronautical and maritime safety of navigation information for 
military flight crews and sailors as well as civil mariners.
    This effort includes updating electronic records on more 
than 45,000 airfields, charting more than 116 million square 
miles of ocean, and managing data on over 3 billion topographic 
features worldwide.
    The bottom line is, without this information, our ships 
would stay in port, our pilots would not fly, and our ground 
forces would not leave garrisons.
    A second example of the contribution of GEOINT is the 
integrated temporal and spatial view of the battlespace that 
NGA provides to combatant commanders and policymakers.
    By identifying threat force capabilities, locations, 
patterns of activities, relationships, and infrastructure 
around the globe, NGA helps the commanders and policymakers 
hold adversaries at risk.
    To support these types of missions, NGA personnel deploy 
all over the world, embedded alongside our military and 
intelligence personnel, and participate in mission planning, 
executions, and follow-up.
    In sum, the intelligence that NGA provides every day is 
critical to the planning and operations of intelligence 
agencies and military units fighting to protect all Americans.
    In the broadest terms, the vision that drives NGA's 
workforce is putting the best GEOINT in the hands of our 
soldiers, sailors, airmen, marines, and coastguardsmen.
    We continuously seek to produce new value for warfighters, 
whether through a map, imagery and technical analysis, or a 
specialized interactive product.
    Looking ahead, NGA's budget request includes funding for 
expanding our analytic capabilities and next-generation 
collection strategies to anticipate evolving national security 
threats, shaping and retaining a skilled and diverse workforce, 
and enhancing protections against cyber and insider threats to 
keep our information and our people safe.
    These investments are aligned with a number of long-term 
strategic initiatives that NGA is pursuing to improve our 
contributions to the warfighter and the Intelligence Community 
as a whole, including better intelligence integration, 
providing better access to our data, especially for the 
warfighter, and enhancing analytic tradecraft to discover key 
unknowns hidden in the masses of data.
    In addition to these strategic initiatives, which focus on 
the long-term success of the Agency, we have kept a close eye 
on the more immediate risks, from Russia and Ukraine, to Iran, 
North Korea, and China, to Syria, Afghanistan, and 
counterterrorism operations as well.
    Finally, I want to mention NGA's progress toward financial 
auditability. The Agency is undergoing our first full-scope 
audit of our 2014 financial statements, and the results from 
this audit will help us identify areas requiring additional 
remediation as we move toward our goal of achieving an 
unqualified opinion on our 2016 financial statements.
    On behalf of the women and men of NGA, thank you for your 
support.
    [The prepared statement of Ms. Long can be found in the 
Appendix on page 29.]
    Mr. Thornberry. Thank you.
    Mr. Ledgett.

STATEMENT OF RICHARD H. LEDGETT, JR., DEPUTY DIRECTOR, NATIONAL 
                        SECURITY AGENCY

    Mr. Ledgett. Chairman Thornberry, Ranking Member Langevin, 
distinguished members of the subcommittee, thank you for the 
opportunity to address you today.
    And on behalf of the outstanding men and women of the 
National Security Agency and Central Security Service [NSA/
CSS], thank you for your support that the Congress and this 
committee in particular give to NSA/CSS.
    Your support makes it possible for us to provide actionable 
intelligence and information assurance expertise to our diverse 
customer set, especially the combatant commanders and our 
military personnel in harm's way.
    With your continued support in fiscal year 2015, we will 
continue to do all we can to protect the Nation and its allies.
    Our 2015 NSA/CSS budget reflects hard choices to ensure 
critical national security requirements are addressed in an era 
of declining budgets.
    The strategic environment we face will continue to become 
more complex and present a dramatically new set of challenges.
    Cyber attacks will allow potential adversaries to overcome 
U.S. advantages in conventional military power. The Nation will 
continue to depend upon NSA's cryptanalysis to sustain our 
access and understanding of foreign communications, even as 
encryption becomes more automatic and more prolific.
    We must support our warfighters, policymakers, and allies 
today while preparing for the future through the development of 
next-generation capabilities all while scrupulously protecting 
privacy and civil liberties.
    Our fiscal year 2015 budget, while accepting risks mandated 
by the current fiscal climate, keeps us on the path to 
accomplish these goals.
    We have recruited and trained an extraordinarily talented 
workforce, and the fiscal year 2015 budget allows us to 
preserve it.
    We are leveraging our human capital by providing our people 
with the most technologically sophisticated and innovative 
intelligence capabilities.
    Investments in cybersecurity will expand across the 
enterprise to meet the demand and speed of action required in 
today's world.
    As you know, NSA executes three distinct funding streams: 
The Consolidated Cryptologic Program, or CCP; the Information 
Systems Security Program, or ISSP; and the Military 
Intelligence Program, or MIP. Let me briefly describe our 
emphasis areas in each of these.
    The CCP enables NSA/CSS to bring the capability of a global 
cryptologic system to bear in support of our national 
policymakers and our warfighting commands. NSA's global 
intelligence capabilities, cryptanalytic and analytic 
tradecraft, operational infrastructure, and reporting 
mechanisms have been developed over time and have resulted in 
the successful delivery of mission requirements.
    And I look forward to providing some specific and recent 
examples in the classified session that will follow.
    NSA/CSS's information assurance investment plan responds to 
the challenges of providing security solutions that keep pace 
with a fast-moving technology sector and agile adversaries.
    We must know the cyberspace environment and its risks, 
protecting information and hardening systems in the national 
security cyber domain.
    This will ensure that systems have the required security 
characteristics commensurate with known and anticipated risks 
and the ability to withstand and recover from cyber attacks and 
intrusions.
    We are continuously refining our strategies to provide 
know-how and technology to suppliers and clients and to 
measurably improve the security of critical operations and 
information.
    NSA/CSS's Military Intelligence Program investment plan 
focuses on delivering responsive, reliable, and effective 
SIGINT, or signals intelligence, to ensure our deployed forces 
can succeed in today's operations and are prepared to respond 
to future threats and technologies.
    The NSA/CSS MIP continues previous investments to improve 
DOD intelligence surveillance and reconnaissance capabilities, 
providing timely and accurate support to our deployed forces, 
achieving interoperability, commonality, and modernization of 
service and U.S. Special Operations Command signals 
intelligence ISR [intelligence, surveillance, and 
reconnaissance] capabilities.
    NSA/CSS will also continue to support an effective joint 
tactical system that provides SIGINT access to targets that use 
the global converged communications infrastructure.
    The MIP investments strengthen the Department's ability to 
address current cyber challenges. Specifically, fiscal year 
2015 investment will focus on the development of a strong cyber 
workforce and intelligence gathering in cyberspace.
    These initiatives will focus on providing U.S. Cyber 
Command Cyber Mission Force support, personnel training, and 
threat operations support and infrastructure.
    We will also continue investing in the research and 
development of solutions that produce actionable signals 
intelligence for deployed forces.
    We will be responsive to the needs for intelligence support 
to combatant commands, including support to the development of 
operations plans and theater campaign plans, as directed by the 
Chairman of the Joint Chiefs of Staff.
    I will conclude by saying that the NSA/CSS budget request 
reflects the necessary balance between today's fiscal realities 
and our unwavering commitment to support of the joint 
warfighter.
    Thank you for your continued support in helping NSA/CSS 
maintain world-class capabilities and serve as a key 
contributor to the protection of our Nation.
    [The prepared statement of Mr. Ledgett can be found in the 
Appendix on page 36.]
    Mr. Thornberry. Thank you all.
    We will immediately reconvene next door. And, with that, 
the open hearing stands adjourned.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]



=======================================================================



                            A P P E N D I X

                             April 4, 2014

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 4, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 

                                       <all>

</pre></body></html>
